WAIVER

Supreme Court of the United States

No. 20-8260
Smith Earton v. John Schuyler Marvin
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
lam filing this waiver on behalf of all respondents.

0 Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

I ama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the

response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature. fhe Mm. Patties,
Date 1- 2-2!

(Type or print) Name 2

 

O Mr: O Miss
Firm OFF ce of tee Disteick Ottorney
Address PO. Box 6% Bonken tdiciana 1l00G
City & State Bewkon, Lovisiana Zip M00
Phone (318) V@S- 2332 — Email_infe@2@tmOad.org,

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

   

Ce?
